 Semiannual Report

   to the Congress

October 1, 2002 - March 31, 2003




         Martin J. Dickman, Inspector General

           Railroad Retirement Board
                       T A B L E O F C O N T E N T S




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2


SIGNIFICANT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 4


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 17


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           19

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         20

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     30

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     31


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       32


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              33

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    34

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                35

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    36

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           43





      All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm
                                                        Semiannual Report to the Congress



E X E C U T I V E S U M M A R Y


  In fiscal year (FY) 2002, the President’s Management Agenda provided five initiatives
  to all Federal agencies: strategic management of human capital, competitive
  sourcing, improved financial performance, expanded E-government, and budget and
  performance integration. During this semiannual reporting period, we reviewed the
  applicability of these initiatives to the operations of the Railroad Retirement Board
  (RRB), and provided recommendations for strategic change that will permit the
  agency to address the President’s initiatives.

  The insufficient monitoring of the National Railroad Retirement Investment Trust
  (NRRIT) activities remains a critical concern to us. As reported in previous
  semiannual reports, this body is responsible for the investment of over $18 billion
  used to support Railroad Retirement Act benefit programs. The NRRIT’s summary of
  investment activities for the period ending February 28, 2003 indicated cumulative
  losses of over $504 million. Because of the lack of detailed information on NRRIT
  activities, we support legislative amendments to specifically grant oversight and
  enforcement powers to this office.

  Our focus on two key operational areas of the Railroad Retirement Board continues:
  financial management and information systems security. We completed the audit of
  the FY 2002 financial statements, and again cited the RRB’s overall control
  environment and information system security as material weaknesses, and
  determined the agency’s accounting for recoveries from benefit overpayments was a
  reportable condition. We continue to work with agency managers to ensure these
  weaknesses are adequately addressed.

  Auditors completed two reviews that also addressed the President’s initiative for
  improvement in Federal financial performance. These reviews evaluated the
  agency’s controls for estimating exposure to improper payments, and management’s
  progress in meeting selected financial management requirements of Office of
  Management and Budget Circular A-127.

  Our investigative staff achieved positive results of 19 convictions, 25 indictments and
  informations, and $1,400,857 in recoveries, restitutions, fines, civil damages, and
  penalties. In response to a request for assistance from the Inspector General at the
  National Aeronautics and Space Administration, two special agents from our office
  assisted in the recovery activities of the space shuttle Columbia.



                                           1
October 1, 2002 - March 31, 2003



I N T R O D U C T I O N


                           Office of Inspector General

    The Office of Inspector General (OIG) has the responsibility for promoting economy,
    efficiency and effectiveness in the programs of the Railroad Retirement Board. The
    office is also charged with the detection, prevention and elimination of fraud, waste
    and abuse in agency operations. To accomplish its mission, the OIG conducts
    audits, management reviews, and investigations.

    The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
    General at the Railroad Retirement Board by naming the agency as “one of such
    establishments” identified under Section 2 of the Inspector General Act of 1978. The
    Inspector General Act Amendments of 1988 added the RRB to the list of agencies
    covered by the Inspector General Act.

    In fiscal year 2003, the OIG has 54 employees and an operational budget of
    $6,322,000. The organization has three major components: the immediate office of
    the Inspector General, the Office of Audit, and the Office of Investigations. The office
    conducts operations from two locations: the headquarters of the Railroad Retirement
    Board in Chicago, Illinois, and an investigative field office in Philadelphia,
    Pennsylvania.




                                             2
                                                    Semiannual Report to the Congress



                      Railroad Retirement Board

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government that is headed by a three member Board appointed
by the President of the United States, with the advice and consent of the Senate.
One member is appointed upon the recommendation of railroad employers, one is
appointed upon the recommendation of railroad labor organizations, and the third,
who is the Chair, is appointed to represent the public interest.

The agency administers comprehensive retirement-survivor and unemployment-
sickness insurance benefit programs for the nation's railroad workers and their
families, under the Railroad Retirement and Railroad Unemployment Insurance Acts.
The RRB also has administrative responsibilities under the Social Security Act for
certain benefit payments and Medicare coverage for railroad workers.

During fiscal year (FY) 2002, the RRB paid $8.6 billion in retirement and survivor
benefits to approximately 684,000 beneficiaries, while net unemployment and
sickness insurance benefits of $99 million were paid to almost 39,000 claimants. The
RRB also administers its own Medicare Part B program through a single carrier,
Palmetto GBA. The carrier made payments totaling $788 million to provide medical
insurance benefits for 571,000 beneficiaries.




                                       3
October 1, 2002 - March 31, 2003



S I G N I F I C A N T I S S U E S


    During this semiannual reporting period, the Office of Inspector General offered
    strategic initiatives for management consideration related to the President’s
    Management Agenda, continued to review the agency’s monitoring of the National
    Railroad Retirement Investment Trust, and completed its audit of the Fiscal Year
    2002 Financial Statements. A discussion of these major efforts follows.


                         STRATEGIC INITIATIVES 

                            RELATED TO THE

                   PRESIDENT’S MANAGEMENT AGENDA


    In fiscal year 2002, the President issued his Management Agenda that included five
    initiatives that are applicable to every department and agency within the Federal
    government: strategic management of human capital, competitive sourcing, improved
    financial performance, expanded E-government, and budget and performance
    integration. During this reporting period, we performed an analysis of the
    applicability of the President’s Management Agenda to the RRB.

    This office has previously recommended that the agency’s Board Members
    concentrate their efforts on revising the RRB organizational structure, reducing the
    size and scope of the agency’s Field Service staff, transferring the administration of
    tier 1 benefits to the Social Security Administration, and requesting a change in the
    structure of the agency to function as a government corporation. We issued these
    proposals to foster strategic change in light of a decline in railroad workers,
    beneficiaries and resources available to the agency.

    Organizational Structure - We believe the agency should reduce its management
    layers and delegate authority to the lowest possible levels. The overall control
    environment of the RRB has been repeatedly cited as a material weakness in internal
    control. The agency’s current structure is a contributing factor to this condition. The
    President’s Management Agenda includes initiatives to reshape organizations to
    reduce the number of managers, organizational layers, and the time required to make
    decisions.



                                             4
                                                        Semiannual Report to the Congress



Field Service Operations - Our initial proposal in this area questioned the need for
over 80 field service locations and recommended the number be reduced to ten.
Agency management conducted a review and reduced the number of offices to 53.
The existing structure is antiquated; the RRB has not adopted a greater use of
electronic communications as recommended by the President to make it easy for
citizens to interact with the Federal government and improve responsiveness to
customers.

Tier I Benefits - The Railroad Retirement Act (RRA) of 1974 established the current
two-tiered system. The tier I benefits were intended to be the equivalent of social
security benefits while the tier II benefits were to parallel other industrial retirement
plans. Because of the similarities in the tier I annuities and social security benefits,
the RRB must duplicate the reporting, recordkeeping and benefit payment capability
that SSA has in place. We believe an RRB/Internal Revenue/Social Security
Administration task force could be formed to substantially reduce or eliminate the
separate employer reporting related to the RRA. Such action would address the
President’s objectives to eliminate duplication in programs operations.

Agency Structure - We continue to believe that a change in structure would allow the
RRB to focus on providing tier II benefits and administering the Railroad
Unemployment Insurance Act programs. The administration of the agency should be
delegated to a Chief Executive Officer, with the existing Board serving in an advisory
capacity.

Finally, the enactment of the Railroad Retirement and Survivors’ Improvement Act of
2001 has altered the benefit structure and financing of future benefits under the
Railroad Retirement Act. The RRB’s investment authority has been transferred to a
board of trustees that is independent of the Federal government. The oversight of a
reduced administrative function could also exist under a similar type of the trust
structure. By pursuing such a change, the agency could meet the President’s
objective to streamline government services, and improve efficiency. We believe the
implementation of the above recommendations will permit RRB management to
effectively address the President’s Management Agenda and to improve agency
efficiency.

During this reporting period, we issued two additional reports that address the
President’s initiatives related to financial performance of Federal programs.


                                          5
October 1, 2002 - March 31, 2003



    Summaries of these reports are located under the Office of Audit section of this
    document.


                             INVESTMENT ACTIVITIES

    In our two most recent semiannual reports, we have discussed the enactment of the
    Railroad Retirement and Survivors’ Improvement Act (RRSIA) and the activities of the
    National Railroad Retirement Investment Trust (NRRIT), the independent board of
    trustees created by the legislation to be responsible for investments used to support
    RRA benefit programs.

    We have continued to express our concerns about the lack of available information on
    NRRIT activities. First, we advised the RRB to inquire about the background and
    expertise of the trustees. Only information concerning the Trust’s independent
    member was provided. We then recommended the removal of any member lacking
    the “experience and expertise in the management of financial investments and
    pension plans.”

    To date, over $18 billion in Federal funds have been transferred to the Trust. Some
    of these monies were realized through the sale of market-based securities issued by
    the Department of the Treasury to the RRB. The schedule of liquidation to which the
    agency and the NRRIT agreed included the sale of such securities, some of which
    provided a yield to maturity of 7%. Such action is particularly troubling given the
    current interest rate environment when there is no risk of default on the principal. In
    its summary of investment activities for the period ending February 28, 2003, the
    NRRIT reported cumulative losses of over $504 million.

    The NRRIT has also failed to provide detailed information of administrative expenses.
    No assessment of the reasonableness of such expenses can be made without
    detailed administrative cost figures. We requested this information, but the Trustees
    have not provided it.

    We remain very concerned about the absence of detailed and verifiable financial
    information. Pursuant to the RRSIA, an annual report that should provide more
    extensive financial information on the majority of investments is not due until March
    2004. Because the RRB management has failed to implement any reporting
    mechanism for assessing portfolio risk, and does not have the ability to effectively


                                             6
                                                     Semiannual Report to the Congress



monitor the activities of the Trust, we support amendments to the RRSIA to
specifically grant oversight and enforcement powers to this office.


      AUDIT OF THE FY 2002 FINANCIAL STATEMENTS

We concluded our audit of the Railroad Retirement Board’s fiscal year (FY) 2002
financial statements, related internal controls and compliance with laws and
regulations. Auditors reported that the principal financial statements presented fairly
the financial position of the RRB as of September 30, 2002 and 2001. They also cited
two material weaknesses, the overall control environment and the agency’s
information system security, and one reportable condition, accounting for benefit
overpayment recoveries. A discussion of these matters follows.

Material Weaknesses

Overall Control Environment

As in each financial statement audit since FY 1993, auditors classified the RRB’s
overall control environment as a material weakness. This weakness in internal
control results from an organizational structure that does not provide proactive top-
down leadership in addressing financial reporting issues. The managers of the
agency’s operating components do not seek assistance across organizational lines to
resolve problems related to financial accounting and reporting.

Auditors also noted that the Office of Management and Budget has established a
timetable for acceleration of financial statement reporting in the Federal government.
The RRB will be required to submit audited financial statements for FY 2004 by
November 15, 2004. In their report, auditors stated that the RRB’s successful
compliance with this new reporting deadline will be considered as evidence of the
adequacy of the agency’s overall control environment with respect to financial
statement reporting only.




                                        7
October 1, 2002 - March 31, 2003



    Information System Security

    OIG evaluations of information security during FYs 2001 and 2002 disclosed
    weaknesses in most areas of the RRB’s information security program. Summaries of
    the findings from these reviews were contained in the two previous Semiannual
    Reports to Congress. Auditors identified the program as a source of material
    weakness in internal control over financial reporting as a result of significant
    deficiencies in program management and access controls.

    Although the RRB has initiated actions to correct identified weaknesses, the most
    significant problems remain. Program management continues to be negatively
    impacted by the lack of training of key personnel. Access controls are not effective
    because of weaknesses in the management of both the mainframe and end-user
    computer environments.

    RRB management has reported this material weakness in its information security
    program in the agency’s annual report on internal control and financial systems, as
    required by the Federal Managers’ Financial Integrity Act.

    Reportable Condition

    Accounting for Benefit Overpayment Recoveries

    Previous OIG reviews in this area have identified errors in the recording of debt
    recovery transactions such as returned benefit payments that were not credited to
    debtors accounts, benefit payments erroneously credited to debtor accounts as
    recoveries, and delayed recording of certain Railroad Unemployment Insurance Act
    debt recoveries. An examination of related internal controls indicated many
    weaknesses that need corrective action by management. In addition, another audit of
    accounts receivable in FY 2002 disclosed additional weaknesses in several
    automated systems.

    Agency management has completed corrective action for some OIG
    recommendations, but they have failed to complete action in several key areas. As a
    result, auditors included this area as a reportable condition.




                                            8
                                                         Semiannual Report to the Congress



O F F I C E O F A U D I T


  The Office of Audit (OA) conducts audits and reviews to promote economy,
  efficiency, and effectiveness in the administration of RRB programs, and to detect
  and prevent waste, fraud, and abuse in such programs. Through the Inspector
  General, the office ensures that the Board Members and Congress are informed of
  current and potential problems in the RRB’s programs and operations, and advised
  of recommended improvements, as well as the status of corrective actions. OA
  examines programmatic, financial, and administrative aspects of RRB operations.

  In addition to the reviews described in the Significant Issues section of this report,
  OA continued its monitoring of the RRB’s efforts to improve information system
  security. Auditors completed an evaluation of the self-assessment process of this
  area and offered recommendations for improvement.

  Two additional reviews, the agency’s quality assurance program for estimating
  exposure to improper payments, and the RRB’s progress in meeting selected
  financial management requirements of OMB Circular A-127, addressed initiatives in
  the President’s Management Agenda for improvements in Federal financial
  performance. Other audits focused on the agency’s Employment Data Maintenance
  System (the database that contains historical service and compensation information
  for every person who has ever worked for a railroad), and the implementation of the
  automated system for employer contributions that are used to fund RUIA benefit
  payments.

  Summaries of these reviews follow.




                                           9
October 1, 2002 - March 31, 2003



Evaluation of the Self-Assessment Process for Information System Security

    In fiscal year 2002, the Office of Management and Budget (OMB) instructed
    agencies to apply standards developed by the National Institute of Standards and
    Technology (NIST) to ensure adequate security in Federal computer systems.
    NIST published a self-assessment guide that presents a standardized approach for
    assessing system security using long-standing requirements established by statute,
    policy and other guidance. The NIST guide includes an extensive questionnaire
    containing specific control objectives, elements, and techniques against which
    systems can be tested and measured.

    In the same year, OMB directed Federal agencies to confirm whether their
    assessment methodology was comprehensive with respect to the NIST standards.
    The RRB reported that its self-assessment process had sufficiently addressed all
    NIST objectives. In our report to OMB, we reported that the agency had addressed
    only seven of the 17 NIST elements. We also reported that Athe RRB questionnaire
    deals primarily with general policy and procedure issues and lacks sufficient
    coverage to match the specific control objectives and techniques provided by
    NIST.@

    The RRB engaged the services of contractors to facilitate the agency=s self-
    assessments in FYs 2001 and 2002. During this recent review of the FY 2002
    process, OIG auditors observed a lack of quality control for the contractor
    conducted process, and identified additional weaknesses that included anonymous,
    incomplete responses to the questionnaire and a lack of supporting documentation.
    The agency was also unable to locate any significant amount of detailed
    documentation to support their contractor=s conclusion for FY 2001.

    The auditors recommended that the agency ensure the self-assessment process:

       • 	is comprehensive with respect to NIST objectives, elements, and
        techniques;

       • provides a consistent basis for assessing changes in the agency=s security
       status from year to year;

       • includes controls to ensure the process is complete and credible; and


                                          10
                                                       Semiannual Report to the Congress



      • is based on information that is clearly documented and maintained.

   The agency=s Chief Information Officer concurred with the recommendations. He
   will implement an automated software tool developed by NIST to conduct future
   assessments and will implement a consistent basis upon which to assess changes
   by FY 2004.



Effectiveness of the Railroad Retirement Act Quality Assurance Program in
Estimating Exposure to Improper Payments

   OIG auditors evaluated the Railroad Retirement Board’s effectiveness in estimating
   the agency’s exposure to improper payments in Railroad Retirement Act (RRA)
   benefit programs.

   Since the Office of Management and Budget first required a report on the cost of
   improper payments in FY 2001, the RRB has used annual studies of initial and post
   adjudication accuracy to complete its reports. The current assessment
   methodology was developed by non-statisticians nearly 15 years ago to respond to
   the question of accuracy within a very narrowly defined framework. Key aspects of
   the study, such as the sample size, the sample selection size and the formulae
   used to project case and payment accuracy, are not adequately documented. In
   addition, the present lack of statistical expertise causes errors in study results.

   Auditors also performed a detailed review of the agency’s annual study of RRA
   initial case and payment accuracy and identified several weaknesses. The study
   data was incomplete, the assessment methodology was not fully documented,
   errors resulted from the lack of statistical expertise, and the treatment of
   constructive awards was problematic. Correction of these weaknesses will ensure
   the RRB employs an effective quality assurance program that is clearly and fully
   documented.

   Recommendations for corrective action were made to management to:

   • develop a comprehensive methodology for estimating the frequency and
   monetary impact of improper payments,



                                         11
October 1, 2002 - March 31, 2003



    • address weaknesses in the current methodology for assessing initial case and
    payment accuracy,

    • provide training in applied statistics to responsible staff, and

    • consider the development of a methodology to measure the monetary impact of
    certain errors that are identified during the review process but do not meet the
    current study criteria for error measurement.

    Implementation of these recommendations will allow agency management to
    determine if improper payments are significant enough to require corrective action,
    the amount to invest to correct any problems, or the impact of actions already taken
    to reduce improper payments.

    Program managers agreed with the auditors’ assessment and have initiated actions
    to address the recommendations. However, they cited limited resources and
    expertise, and requested the OIG’s assistance in developing the recommended
    methodology. The OIG has initiated a separate audit to assess the sufficiency of
    existing data to estimate the impact of improper payments.



Review of the Railroad Retirement Board’s Progress in Meeting
Selected Federal Financial Management Requirements

    Auditors conducted this review to assess the RRB’s progress during fiscal year
    2002 in meeting selected financial management requirements of Office of
    Management and Budget (OMB) Circular A-127. This circular prescribes policies
    and standards for executive departments and agencies to follow in developing,
    operating, evaluating and reporting on financial management systems. This audit
    indicated that the RRB has met the major financial management system
    requirements of the OMB Circular.

    Although the agency is not subject to the financial reporting requirements of the
    Chief Financial Officers Act, the RRB has emulated CFO Act agencies in publishing
    audited financial statements, meeting the Act requirements and reporting timetable
    that currently requires annual submission of statements by January 31. In
    December 2002, the Director of OMB informed the RRB that, beginning with the


                                             12
                                                     Semiannual Report to the Congress



fiscal year 2004 financial statements, the agency will be required to submit
performance and accountability reports to OMB and the Congress by November 15,
2004.

Auditors expressed concern about the agency’s ability to meet this accelerated
schedule. At present, the financial statements are prepared through entering data
into a complex series of interrelated spreadsheets. The lack of an automated
process for the preparation of financial statements will seriously affect the RRB’s
ability to meet the revised due date. The Chief Financial Officer concurred with the
finding, and advised the OIG that he had initiated a project in February 2003 that
will allow the agency to “generate the primary financial statements within a week of
closing.” The target completion date for the project is June 2003.

This audit also addressed the agency’s lack of a full assessment of its financial
management systems for compliance with the requirements of the Joint Financial
Management Improvement Program (JFMIP). Since 1988, JFMIP has published
detailed system requirements for thirteen areas of financial accountability.
Agencies may comply by building or modifying their financial systems or may
purchase software that has been tested by the JFMIP and certified compliant with
its mandatory requirements.

The RRB has implemented a core financial system and integrated purchasing and
budgeting subsystems that are certified as JFMIP compliant. However, the agency
also has several major non-integrated systems that have not been formally
assessed for compliance with JFMIP standards. Auditors recommended, and
management concurred, that periodic evaluations of JFMIP compliance should be
part of the agency’s existing management control review process. As a result, the
agency is developing a process to coordinate the management control and
computer security assessment and review process.




                                       13
October 1, 2002 - March 31, 2003



Inspection of Unverified Records in the Railroad Retirement Board’s
Employment Data Maintenance System

    The RRB uses the Employment Data Maintenance (EDM) database system to
    maintain historical service and compensation information for each person who has
    ever worked for a railroad employer. Railroad employers report this information
    using an employee Social Security number as the primary identifier. Railroad
    retirement benefits are awarded based on the number of months of service and the
    amount of compensation recorded in EDM.

    The RRB verifies the SSN and name of all new railroad employees with the records
    of the Social Security Administration through an initial process that matches the
    automated records of the two agencies. This process is used to ensure that service
    and compensation are recorded accurately as a basis for the determinations
    concerning the entitlement to benefits and the amount of benefits payable. If the
    name and SSN do not agree, the EDM account is considered unverified and
    referred for further manual review by RRB employees. EDM also identifies
    accounts that were unverified when that system was implemented in 1989.

    An analysis of approximately 15,500 accounts that the agency categorized as
    unverified as of March 2002 identified over 1,700 accounts that were incorrectly
    identified as pending verification, and over 3,700 accounts that have remained
    unverified for at least 13 years. Some of these accounts contained compensation
    from 1937. Auditors also questioned the continued status of 1,922 accounts
    currently categorized as unverified due to the absence of a matching SSN on the
    records of the Social Security Administration. Recommendations were issued to
    management to update current procedures and establish effective followup actions
    for unverified accounts. RRB program managers have initiated action to develop a
    comprehensive plan by July 2003 to improve the process.

    Auditors also identified that current procedures and controls do not provide
    reasonable assurance that compensation and service are maintained in a single
    EDM account for railroad employees who have more than one SSN. The RRB
    currently relies upon a manual review process to ensure all data is recorded in only
    one EDM account. Management has agreed to incorporate improvements to the
    process for verifying EDM records and resolving discrepancies into the
    comprehensive plan to be completed by July 2003.


                                           14
                                                          Semiannual Report to the Congress



Evaluation of RRB E-Government Initiative: RUIA Contribution Internet
Reporting and Payment

   As part of its responsibilities under the Railroad Unemployment and Insurance Act
   (RUIA), the RRB collects employer contributions that are used to fund the RUIA
   benefit payments. Employers make contributions and report them to the agency on
   a quarterly basis. In the past, employers have reported contributions by submitting
   a paper copy of Form DC-1, “Employer’s Quarterly Report of Contributions under
   RUIA,” to the RRB, and have paid their contributions by paper check or electronic
   means. The electronic payment option, RRBLink, was implemented in 1993 and
   allows employers to make electronic payments using personal computer/modem
   technology, telephone and telephone voice technology.

   In order to further streamline the employer contribution process, RRB management
   has developed an Employer Reporting Initiative to automate the current paper-
   based reporting. Phase I of this program implemented the DC-1 Internet reporting
   and payment project in March 2002. The contractor, U.S. Bank, in conjunction with
   the RRB’s Bureau of Fiscal Operations, modified the RRBLink system to add a new
   option for electronic payment over the Internet and allow for Internet filing of the DC-
   1 reports for those railroads that adopted the Internet payment option.

   Auditors performed this review to evaluate the implementation of the project, and
   identified significant weaknesses in overall security of the Internet system, problems
   with the 2002 Memorandum of Understanding (MOU) between U.S. Bank and the
   RRB, and concerns about the level of railroad participation in the Internet system.

   The RRB cannot adequately validate the certification of any Form DC-1 filed using
   the Internet; employers filed over 200 DC-1 forms for the first and second quarters
   of calendar year 2002. The agency and U.S. Bank have failed to implement
   sufficient controls over the Internet enrollment process. In addition, auditors
   identified instances in which authorized Internet users share their access to the
   secure system with individuals who have not been officially granted access to the
   electronic payment system. U.S. Bank also did not fully implement restrictions on
   password use and limits on log-on attempts. In addition, invalid log-in attempts
   were not limited, recorded or reviewed.




                                           15
October 1, 2002 - March 31, 2003



    The review of the 2002 MOU indicated the lack of performance requirements and
    details to satisfy both parties’ needs. Information concerning timeliness, costs for
    handling information requests, the mechanism for resolving disputes over
    provisions, and other critical terms was not included because RRB program
    personnel believed the details of the 1993 RRBLink agreement automatically
    applied. In addition, the MOU does not specifically state how the privacy and
    security of DC-1 data will be monitored.

    Auditors also recommended that the agency implement a plan to encourage
    increased railroad participation in the Internet system. In the initial implementation
    of the system, about 20% of all railroads filed through the Internet for the first
    quarter of 2002. However, only ten additional railroads began filing via the Internet
    in the second quarter of 2002. None of the seven major railroads are using the
    Internet for DC-1 reporting and payments. These railroads contributed
    approximately 70% of total RUIA compensation in calendar year 2001. Railroads
    using the Internet system provided 5% or less of the total RUIA compensation
    during the same period.

    The RRB’s Bureau of Fiscal Operations concurred with the OIG findings in the
    report, and have initiated action for the report recommendations.




                                            16
                                                     Semiannual Report to the Congress



AUDITS: MANAGEMENT DECISIONS AND IMPLEMENTATION


 The Office of Inspector General maintains the open audit follow-up system to track
 the status of corrective actions for all audit recommendations. Office of
 Management and Budget Circular No. A-50 (Revised) and the Inspector General
 Act Amendments of 1988 require the reporting of management decisions and
 corrective actions for all audit recommendations.



 Management Decisions for Recommendations

 Requiring a management decision on October 1, 2002                                   0

 Pending management decisions for new recommendations                                 4

 Management decisions for previous recommendations                                    0

 Recommendations pending a management decision
   on March 31, 2003                                                              4

 Corrective Actions

 Recommendations requiring action on October 1, 2002                              72

 Recommendations issued during this period                                        37

 Corrective actions completed during the period                                 - 20

 Final actions pending on March 31, 2003                                          89




                                       17
October 1, 2002 - March 31, 2003



O F F I C E O F I N V E S T I G A T I O N S


    The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
    primary objective is to identify, investigate, and refer for prosecution and monetary
    recovery action, cases of waste, fraud and abuse in RRB programs. Through its
    investigations, OI also seeks to prevent and deter program fraud. In order to
    maximize the effect of its resources, OI continues to pursue cooperative
    investigative activities and coordination with other Inspectors General and law
    enforcement agencies, which include the Social Security Administration-Office of
    Inspector General, the Federal Bureau of Investigation, the U.S. Secret Service, the
    Internal Revenue Service, and the Postal Inspection Service.



    Assistance to the National Aeronautics and Space Administration (NASA)

    On February 1, 2003, the space shuttle Columbia and its crew of seven astronauts
    were lost in the sky over Texas. In order to expedite recovery efforts, the Inspector
    General at NASA issued a request for assistance to other members of the Federal
    IG community.

    We asked for volunteers from our special agent staff. As a result, two criminal
    investigators on our staff traveled to Texas on February 5. Each agent contributed
    100 hours of support providing security for recovered Shuttle debris, surveillance of
    subjects suspected of stealing Shuttle debris, and interviews of witnesses and
    subjects.




                                           18
                                             Semiannual Report to the Congress




                                                              10/01/02 -
INVESTIGATIVE ACCOMPLISHMENTS                 FY 2002         03/31/03

Convictions                                             53              19

Civil Judgements                                        36              21

Indictments/Informations                                37              25

Investigative Recoveries                     $   229,664      $   719,657

Restitutions and Fines                       $   853,864      $   337,796

Civil Damages and Penalties                  $ 2,146,591      $   343,419

Potential Economic Loss Prevented (PELP)                 0                 0

Community Service Hours                               698              300

Disciplinary/Administrative Action                       1                 0

Civil Complaints                                        75                 7
Criminal Complaints                                                        3

Arrests                                                  3                 1

Subpoena Service:
 Inspector General                                      13               4
 Federal Grand Jury                                     40              57
 Trial                                                   9               0

Program Fraud Civil Remedies Act Referrals               1                 0

U.S. Attorney Referrals                               231              122




                                       19

October 1, 2002 - March 31, 2003



INVESTIGATIVE CASES

During this semiannual period, OI opened 156 investigations and closed 113 cases.
The major sources of case referrals are illustrated below.

                                                     Computer Matches - 8%
       RRB District Offices - 15%


                                                                  OIG Developed - 13%




  RRB Headquarters - 46%                                           Hotline - 11%




                                                               Others - 7%




OI's current caseload totals 511 criminal matters, representing approximately $18.7
million in fraud against the RRB.
                                                         Disability -176 cases
       Unemployment - 126 cases                              $1,770,000
             $555,000




                                                                  Sickness - 20 cases
        Retirement - 121 cases                                         $92,000
             $4,792,000
                                                              Spouse/Dependent - 26 cases
                                                                    $688,000
                                                       Representative Payee - 21 cases
                                      Other - 21 cases       $131,000
                                         $10,648,000




                                           20
                                                        Semiannual Report to the Congress



REPRESENTATIVE INVESTIGATIONS



                   Retirement Benefit Investigations

  RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
  Treasury checks, or the illicit conversion of U.S. Treasury electronic fund transfers,
  by someone other than the authorized RRB annuitant. During this reporting period,
  OI obtained three convictions and one civil judgement for retirement fraud.
  Defendants received eight years probation, six months house arrest, and were
  ordered to pay $14,032 in restitution, and $17,922 in civil damages. The RRB will
  recover $36,659 in overpayments as a result of OIG investigations of retirement
  benefit programs.

  Examples of recent retirement cases follow.

  •	 Based on a match of records with the Social Security Administration, the RRB’s
     Debt Recovery Division referred a case to OI involving an annuitant who
     allegedly collected RRB benefits that exceeded the annual exempt earnings
     amount. Earnings limitation amounts for the years in question, 1997 and 1998,
     were $8,640 and $9,120 respectively.

    OI agents determined that the subject owned his own company that performed
    consulting and track maintenance work for railroads in Texas. He also operated
    a livestock ranch. For calendar years 1997 and 1998, he reported wages of
    $35,700 and $51,300 to the Social Security Administration but failed to report this
    information to the RRB. Based on these earnings, the subject was paid $17,922
    in benefits to which he was not entitled because he did, in fact, exceed the
    exempt earnings limitations. On February 10, 2003, he signed a settlement
    agreed with the U.S. Attorney’s office and repaid the total amount.




                                         21
October 1, 2002 - March 31, 2003



    •	 Another referral from the Debt Recovery Division concerned annuity payments
       that had continued to be made after the death of an annuitant. The referral
       indicated that the annuitant had passed away in June 1997, but the RRB had
       received no notification. The agency had issued 33 annuity payments totaling
       $29,238 via electronic funds transfer. RRB efforts to recover these funds via
       reclamation with the bank were unsuccessful.

       After verifying the death of the annuitant in 1997, OI agents interviewed the
       annuitant’s hired caretaker. The woman confessed that she had taken
       possession of the deceased annuitant’s ATM check card, and had withdrawn the
       funds for her personal use.

       On March 18, 2003, the caretaker entered a guilty plea, and a criminal judgement
       was entered against her for violation of Title 19, U.S.C. §641, Theft of
       Government Funds. She was sentenced to five years of probation, and was
       ordered to make full restitution to the RRB.




                                          22
                                                       Semiannual Report to the Congress



  Unemployment and Sickness Insurance Investigations


Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
individuals claiming and receiving UI or SI benefits while working and receiving
wages from an employer, in violation of Federal law. The primary source of UI/SI
fraud cases remains state computer matching programs that compare RRB
beneficiaries with individuals for whom wages have been reported.

During this reporting period, OI obtained nine convictions and 17 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, five
months imprisonment and 24 years probation. They were ordered to pay $50,974
in restitution, $93,462 in damages, $325 in fines, $166,540 in civil penalties and to
perform 300 hours of community service. The RRB will also be able to recover an
additional $28,463 as a result of OI investigations.

OI received the majority of these cases for followup investigation from the RRB’s
Disability, Sickness and Unemployment Benefits Division as a result of information
developed from state wage matching programs. These programs match RRB
annuitants with individuals who earned compensation in each state. Examples of
several cases completed this reporting period follow.

•	 This case was initiated following a claimant interview with RRB district office
  personnel. The claimant admitted working for the Chicago Transit Authority while
  claiming and receiving $4,726 in unemployment benefits from the agency.

  OI agents interviewed the subject who claimed confusion regarding his eligibility
  for benefits. At no time, however, did he attempt to deny or conceal his
  employment. He subsequently entered into a Consent Judgement with the U.S.
  Attorney for violation of Title 31, §3729, False Claims Act. Based on this
  judgement, the subject was ordered to pay $9,452 in damages and penalties to
  the government.




                                        23
October 1, 2002 - March 31, 2003



    •	 A case was initiated based on a referral from an agency program division that
       indicated an unemployment insurance claimant possibly claimed benefits in the
       same calendar quarter that he was working for a private employer. OI
       investigation determined that the subject had worked as a substitute school
       teacher in Texas on the same days as claiming benefits totaling $4,752.

       On February 1, 2003, a default judgement was filed against the subject for
       violations of the False Claims Act. The conditions of the judgement included
       treble damages and a penalty of $5,000-$10,000 per count. The subject had
       filed 13 false claims resulting in a total judgement debt of $144,256.



    •	 A state wage match with the state of Michigan identified a laborer employed at a
       wire processing company was also receiving RRB unemployment benefits. He
       worked for 87 days while claiming benefits, resulting in an overpayment of
       $3,960.

       A civil complaint was filed against the subject for filing the false claims. On
       February 25, 2003, a default judgement was signed in the amount of $12,178.



    •	 An investigation of another unemployment claimant revealed a subject claimed
       benefits in the same calendar quarter that he was employed, resulting in an
       overpayment of $10,770. The subject worked as a bus driver for a transit
       company. When interviewed, the subject admitted his actions.

       On September 27, 2002, he was sentenced for violations of Indiana State Code
       35-43-5-7, Welfare Fraud (Felony). The subject was sentenced to four years
       probation and ordered to pay restitution of $10,770.




                                           24
                                                     Semiannual Report to the Congress



•	 An Arkansas annuitant was identified through a computer wage matching
   program with that state that indicated he had claimed benefits in the same
   calendar quarter that he was employed. Investigation revealed that he had
   worked as a laborer for a clothing store on the same days and claimed
   unemployment benefits. As a result, he was overpaid $9,264.

  On October 24, 2002, he entered into a pre-trial diversion agreement with the
  U.S. Attorney’s Office. He agreed to 18 months supervision and will pay
  restitution of $3,600 resulting from violations of 18 U.S.C. §287, False Claims.



•	 A Georgia claimant who was employed by the Pepsi Cola Bottling Company was
   identified as the recipient of unemployment benefits while working. He
   fraudulently submitted eight false claims, resulting in the theft of $3,792 in
   government funds. These acts were in violation of Title 18, §287, False Claims,
   and Title 18, §641, Theft of Government Funds.

  On December 17, 2002, the subject entered into a pretrial diversion and was
  ordered to make restitution of $3,792 to the RRB.



•	 Another investigation, based on a referral from the RRB, was initiated regarding
   a California claimant. OI special agents determined that the subject had
   received $5,568 in unemployment benefits while employed as a driver for a sales
   company. On August 15, 2002, a criminal information was filed in U.S. District
   Court, charging the claimant with theft of government funds.

  On November 20, 2002, the subject pleaded guilty to the criminal information
  charging him with two counts of violating 18 U.S.C. §641. He was subsequently
  sentenced in U.S. District Court to 60 months probation and ordered to pay
  restitution of $5,568 to the RRB.




                                      25
October 1, 2002 - March 31, 2003



                             Disability Investigations


    The OIG also conducts fraud investigations relating to the RRB's disability program,
    which typically involves larger financial amounts and more sophisticated schemes.
    An individual who receives a disability annuity is restricted to earning not more than
    $400 in one month. An earnings cap of $4,999 per year also applies. Disability
    annuitants must report all work activity to the RRB.

    During this reporting period, OI obtained one civil judgement and three criminal
    convictions for disability fraud. Defendants in these cases were collectively
    sentenced to one year imprisonment, six months house arrest, and eight years
    probation. In addition, they were ordered to pay $227,198 in restitution, $10,000 in
    fines, and $35,094 in civil damages.

    The two following cases were initiated by our Philadelphia field office based on
    complaints received on the OIG hotline.

    •	 In one case, a complainant reported that a subject in West Virginia was
       employed by a furniture company and was concealing part of his earnings. The
       caller also stated that the owner of the store was reporting the subject’s earnings
       as $400 per month. Investigation revealed that the subject was, in fact, having
       his excess earnings reported under the social security numbers of his wife and
       stepfather. The subject initiated this action in June 1992, and it continued until
       July 2001. As a result, an overpayment of $165,198 was calculated in this case.

       In December 2002, the subject plead guilty to one count of violating Title 18,
       U.S.C. §641, Theft of Government Funds. He was sentenced to 12 months
       imprisonment and placed on two years of supervised release. He was also
       ordered to pay restitution totaling $165,198.




                                           26
                                                          Semiannual Report to the Congress



    •	 In the second case, the complainant reported that a disability annuitant was
       currently employed as a wide load escort driver in Virginia. After OI special
       agents interviewed the subject in May 2001, he provided them with a signed
       statement in which he admitted he had been a paid contract employee, earning
       at least $1,000 a month from March 1998 through December 2000. Based on
       the subject’s admissions, the RRB determined he had been overpaid $65,789.

      During plea negotiations, OI agents participated in a meeting with the subject, his
      legal counsel, and the Assistant U.S. Attorney. The subject recanted this
      previous statement and presented written witness testimony that disputed the
      amount of money he had earned. Based on this witness testimony and a lack of
      evidence to refute that testimony, the overpayment was reduced to $12,000. The
      subject subsequently signed a plea agreement for one count of Title 45, U.S.C.
      §231(l), and agreed to make restitution to the RRB in the amount of $12,000.
.
      On February 6, 2003, a judgement in a criminal case was entered against the
      subject in U.S. District Court for one count of Title 45, U.S.C. §231(l), Failure to
      Report Information to the RRB. The subject was ordered to make restitution to
      the RRB, to be deducted by the RRB at the rate of $100 monthly from his current
      annuity, and was sentenced to one year of probation.




                                           27
October 1, 2002 - March 31, 2003



                   Surviving Child Benefit Investigations

    Surviving child fraud benefit cases typically involved the falsification of school
    attendance forms. Child benefits are payable to an unmarried child under age 18.
    If a child meets these criteria and is in full-time attendance at an elementary or
    secondary school or in approved home schooling, he or she may receive an annuity
    until age 19, or the end of a school term in progress when the student attains age
    19.

    During this period, OI obtained three criminal convictions involving this type of fraud.
    Defendants were sentenced to 11 years probation, and ordered to pay $23,579 in
    restitution.

    •	 The RRB District Office in Denver, CO referred a possible fraud case that
       indicated that a student had fraudulently claimed full-time student benefits by
       falsifying RRB attendance verification forms.

       OI agents determined that a student annuitant, with the help of his mother, had
       falsified three student attendance verification forms from October 2000 through
       June 2001, enabling him to continue to receive student benefits. These criminal
       acts resulted in the theft of $11,143 in RRB student benefits. In October 2002,
       the mother and son were found guilty of violating Title 45, U.S.C. §231(l), Failing
       to Provide Information to the RRB/Making False Statements. As a result, the son
       was placed on probation for three years and ordered to make full restitution to
       the RRB. His mother was also placed on probation for three years and ordered
       to make joint restitution.



    •	 OI initiated another investigation involving student fraud based upon a complaint
       filed by the RRB’s Survivor Benefits Program. Investigation revealed that the
       subject had not been a student in the time period for which she applied and
       received benefits totaling $13,337 in RRB benefits. Both the student and her
       mother refused to cooperate with OI agents during the investigation.

       OI agents obtained a Grand Jury subpoena to obtain bank records, and
       determined that the student benefits were electronically transferred into a joint
       account held by the student and her mother. The funds were then transferred


                                            28
                                                    Semiannual Report to the Congress



into the mother’s individual account shortly after being paid. In addition,
handwriting exemplars obtained from the mother via another Grand Jury
subpoena identified her as the probable writer on the forged student
questionnaires submitted to the RRB.

The mother pleaded guilty to violation of Title 18, §641, Theft of Government
Property, and was sentenced to five years probation and ordered to pay $12,337
in restitution to the RRB.




                                     29
October 1, 2002 - March 31, 2003



       AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM


    OI continues to pursue prosecution of cases under the Department of Justice's
    Affirmative Civil Enforcement Program. This program involves "fast track" civil
    prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
    3729-3733, The Civil False Claims Act. This statute allows the government to
    recover up to triple damages as well as $5,000 to $10,000 for each false claim
    submitted.

    The Department of Justice is frequently obtaining double damages through these
    civil false claims prosecutions. The judgements obtained in these cases also
    provide the agency with an efficient and effective basis to pursue their collection
    activities.

    The ACE Program continues to provide an efficient means to address fraud against
    agency programs, particularly where the fraud losses are below the financial
    guidelines for criminal prosecution. It also is an effective way to return fraud losses
    to the RRB's trust funds and create a deterrent against future fraud.

    During this reporting period, a total of 14 civil judgements under the ACE program
    were entered by Federal district courts which will result in the return of $285,313 to
    the government when the funds are collected.




                                            30
                                                             Semiannual Report to the Congress



                                 HOTLINE CALLS


   The Office of Inspector General established its Hotline to receive complaints
   concerning suspected fraud, waste and abuse in RRB programs and operations.
   The Hotline provides an open line of communication for individuals to report
   suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
   funds.



                                                                                 10/01/02 -
                                                                                 03/31/03
Total Contacts: (Telephone Calls and Letters)                                         582 



Referred to: RRB-OIG, Office of Investigations                                         25 



RRB Bureaus/Offices                                                                   292 



Other Federal Agencies                                                                 16 



RRB Medicare Carrier/Durable Medical Equipment

Regional Carriers                                                                       7



Other (misdirected calls, follow up calls to agents, etc.)
                                                                                      177
Calls for which there was insufficient information to

substantiate an allegation or to make a referral                                       65 





                                            31
October 1, 2002 - March 31, 2003



LEGISLATIVE & REGULATORY REVIEW


The Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of the
agency, and to make recommendations in the semiannual report concerning the impact
on the economy and efficiency of the agency’s administration of its programs and on the
prevention of fraud and abuse.

During this reporting period, the agency issued a final regulation addressing requests for
reconsideration and appeals within the agency. The amended regulation clarified the
appeals procedures. This change positively impacts the economy and efficiency of the
administration of the agency’s programs.




                                            32
                                                      Semiannual Report to the Congress



APPENDIX A

                            REPORTS ISSUED

  P	 Effectiveness of the Railroad Retirement Act Quality Assurance Program in
    Estimating Exposure to Improper Payments, October 9, 2002

  P	 Evaluation of the Self-Assessment Process for Information System Security,
     December 27, 2002

  P	 Evaluation of RRB E-Government Initiative: Railroad Unemployment and
    Insurance Act Contribution Internet Reporting and Payment, December 27, 2002

  P Audit of the Fiscal Year 2002 Financial Statements, January 24, 2003

  P	 Review of the Railroad Retirement Board’s Progress in Meeting Selected Federal
     Financial Management Requirements, March 18, 2003

  P	 Strategic Initiatives Related to the President’s Management Agenda,
     March 31, 2003

  P	 Inspection of the Unverified Records in the Railroad Retirement Board’s
     Employment Data Maintenance System, March 20, 2003




                                        33
October 1, 2002 - March 31, 2003



APPENDIX B


OIG REPORTS WITH RECOMMENDATIONS THAT QUESTIONED COSTS


No activity during this reporting period.




OIG REPORTS WITH RECOMMENDATIONS FOR BETTER USE OF FUNDS


No activity during this reporting period.




                                            34
                                                                      Semiannual Report to the Congress



APPENDIX C

     REPORT ON RECEIVABLES, WAIVERS, AND RECOVERIES

The FY 1999 appropriations language for this office requires the reporting of 

additional information concerning actual collections, offsets and funds put to better use

achieved as a result of Inspector General activities. Figures are to be provided for each

semiannual period and as a cumulative number.


Office of Audit

         Funds to be Put     Funds Agreed       Receivables                   Recoveries
Report    To Better Use      by Management       Established     Waivers        To Date

99-03    $     50,850         $     50,850        $ 50,850     $ 50,490     $    360
99-14    $     83,000         $     83,000*       $ 34,423                  $ 30,584
99-16    $ 48,000,000         $ 48,000,000
99-17    $ 11,000,000         $ 11,000,000
00-16    $    235,000         $    235,000                                   $ 253,846**

* This figure includes monies owed to the agency and overpayments which must be refunded.
**This figure represents returned payments credited to debtor accounts.

Office of Investigations

Recoveries realized by the RRB resulting from court ordered restitution and civil damages

October 1, 1998 - March 31, 1999                  $ 344,465
April 1, 1999 - September 30, 1999                $ 511,190
October 1, 1999 - March 31, 2000                  $ 495,402
April 1, 2000 - September 30, 2000                $ 542,732
October 1, 2000 - March 31, 2001                  $ 457,015
April 1, 2001 - September 30, 2001                $ 533,341
October 1, 2001 - March 31, 2002                  $ 403,384
April 1, 2002 - September 30, 2002                $ 382,459
October 1, 2002 - March 31, 2003                  $ 533,346




                                                    35
October 1, 2002 - March 31, 2003



APPENDIX D - RRB MANAGEMENT REPORTS*

                   MANAGEMENT REPORT ON FINAL ACTION

                   ON AUDITS WITH DISALLOWED COSTS FOR

                 THE SIX MONTH PERIOD ENDING MARCH 31, 2003


                                                                                   Disallowed
                                                           Number                    Costs

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                     0                        0

 B. Audit reports on which management
 decisions were made during the period.                       0                        0

 C. Total audit reports pending final action during
 the period. (A + B)                                          0                        0

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                           0                        0
    (b) Property
    (c) Other


 2. Write-offs                                                0                        0


 3. Total of 1 and 2                                          0                        0


 E. Audit reports needing final action at the                 0                        0
 end of the period.



* The information contained in this section has been provided by RRB management.




                                                      36
                                                                     Semiannual Report to the Congress




        MANAGEMENT REPORT ON FINAL ACTION ON AUDITS

      WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE

        FOR THE SIX MONTH PERIOD ENDING MARCH 31, 2003


                                                                                    Funds to be put
                                                            Number                   to better use
 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                       3                    $ 59,136,196 *
 B. Audit reports on which management
 decisions were made during the period.                         0                          0

 C. Total audit reports pending final action during
 the period. (A + B)                                            3                    $ 59,136,196

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                       0                    $      0

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                   0                    $      0

 3. Total of 1 and 2.                                           0                    $      0

 E. Audit reports needing final action at the end
 of the period (C - D.3).                                       3                    $ 59,136,196


* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status
of Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of Supplemental
Annuities;” and $529,996 from Audit Report 01-11, “Review of the Quality of the Debt Recognition and
Collection Process for Railroad Retirement Act Overpayments.”




                                                      37
October 1, 2002 - March 31, 2003




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                   AS OF MARCH 31, 2003

                                                     Funds to
                                   Disallowed        be put to          Reason action has not
        Report            Date       Costs           better use            been completed

Review of Quality        1/22/97     None               None	     The remaining recommendation will
Assurance Activities                                              be addressed as the agency
(97-06)                                                           develops a long-term quality
                                                                  assurance plan.

Review of Non-Priority   3/13/97     None               None	     The Office of Programs hopes to
Correspondence                                                    finish evaluating options for
Handling (97-09)                                                  correspondence tracking in FY 2003
                                                                  in order to close the remaining
                                                                  recommendation.

Review of Duplicate      7/31/97     None               None	     Programming changes to suppress
Postings of Railroad                                              duplicate earnings referrals should
Compensation (97-19)                                              be completed in FY 2003 to close
                                                                  the remaining open
                                                                  recommendation.

Review of Overpayments   8/25/97     None               None	     Preliminary tests of programming
SSA Transfer Cases                                                changes to automate non-death
(97-22)                                                           termination cases revealed the
                                                                  need for added security measures,
                                                                  which have been requested.

Vested Dual Benefits     6/16/98     None               None	     The agency will review the feasibility
Appropriations (98-15)                                            of benefit component accounting as
                                                                  part of its overall strategic
                                                                  information technology planning
                                                                  process.




                                                38
                                                                  Semiannual Report to the Congress




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                   AS OF MARCH 31, 2003

                                                     Funds to
                                   Disallowed         be put to         Reason action has not
        Report            Date       Costs           better use            been completed

Review of Computer       2/12/99     None              None	      The Bureau of Information Services
Problem and Change                                                has developed a service-level
Management Process                                                agreement to monitor internal
(99-05)                                                           customer satisfaction.

Review of Railroad       9/21/99     None              None	      The agency is making programming
Unemployment                                                      changes to automate the
Insurance Act                                                     reconciliation process for
Contributions (99-14)                                             unemployment insurance reports
                                                                  and payments in phases.

Financial Interchange:   9/28/99     None        $48,000,000	     The agency continues to provide
Status of Prior                                                   information to the Social Security
Recommendations for                                               Administration in support of revising
Change (99-16)                                                    Financial Interchange calculations
                                                                  to reflect unrecovered
                                                                  overpayments.

Review of                9/30/99     None        $10,606,200	     The agency requested additional
Supplemental Annuities                                            information on private pensions
(99-17)                                                           from some railroad employers and
                                                                  hopes to complete action on the
                                                                  remaining recommendations in FY
                                                                  2003.




                                                39
October 1, 2002 - March 31, 2003




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                   AS OF MARCH 31, 2003

                                                      Funds to
                                    Disallowed        be put to          Reason action has not
        Report             Date       Costs           better use           been completed

Review of Internal        10/5/99     None               None	     The agency installed improved
Controls Over Fixed                                                software for tracking fixed assets
Assets (00-01)                                                     and is in the process of reconciling
                                                                   the initial accountable property
                                                                   inventory under this system.

Information Systems       6/28/00     None               None	     The agency has implemented nine
Security (INFOSEC)                                                 recommendations, and is working to
Assessment Report                                                  close out the remaining six.

Review of the             8/11/00     None               None	     Testing of system changes to
Processing of Automated                                            improve recovery of representative
Receivables,                                                       payee overpayments is underway
Reclamations and                                                   prior to implementation.
Credits (ARRC) System
Referrals (00-14)

Review of Information     9/6/00      None               None	     A post-implementation review of
Technology Contracts                                               upgrades to the agency’s wide-area
(00-15)                                                            network should close the remaining
                                                                   recommendation.

Review of Internal        9/29/00     None               None	     Final action on the two remaining
Control Over Financial                                             open recommendations is
Accounting for Debt                                                contingent on completion of
Recoveries (00-16)                                                 programming changes and related
                                                                   procedures.




                                                 40
                                                                     Semiannual Report to the Congress




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                   AS OF MARCH 31, 2003

                                                        Funds to
                                      Disallowed        be put to          Reason action has not
         Report             Date        Costs           better use           been completed

Review of Document         11/17/00     None              None	      The agency hopes to close the
Imaging - Railroad                                                   remaining recommendation in FY
Unemployment                                                         2003 as backup capabilities are
Insurance Act Programs                                               enhanced for the remaining local-
(01-01)                                                              area network servers.

Audit of the RRB’s         2/23/01      None              None	      The Bureau of Information Services
FY 2000 Financial                                                    will address the remaining
Statements (01-03)                                                   recommendation on problem
                                                                     reports pending availability of funds.

Timeliness of Desk Audit   6/28/01      None              None	      The Bureau of Human Resources
and Vacancy                                                          has requested assistance in
Announcement                                                         developing a database to track
Processing by the                                                    performance in an automated
Bureau of Human                                                      fashion.
Resources (01-08)

Site Security              7/20/01      None              None	      The Bureau of Information Services
Assessment for the                                                   has closed out nine
Office of Inspector                                                  recommendations, and is in the
General                                                              process of addressing the three
                                                                     remaining ones.

Review of the RRB’s        8/07/01      None              None	      Final action on the remaining open
Contract with                                                        recommendation depends on
Comprehensive Health                                                 requested programming changes
Service, Inc. For                                                    being made.
Disability Examinations
and Services (01-10)




                                                   41
October 1, 2002 - March 31, 2003




      MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

      OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                    AS OF MARCH 31, 2003

                                                     Funds to
                                       Disallowed    be put to         Reason action has not
         Report               Date       Costs       better use          been completed

Review of the Quality of     8/9/01      None        $ 529,996	   The agency hopes to implement
the Debt Recognition                                              added quality control measures in
and Collection for RRA                                            FY 2004 to address the report’s
Overpayments (01-11)                                              last open recommendation.

Security Controls            8/17/01     None            None	    The Bureau of Information
Analysis for the Office of                                        Services closed 31
Inspector General                                                 recommendations and is currently
                                                                  addressing the remaining seven.

Review of Information        2/5/02      None            None	    The Bureau of Information
Security at the Railroad                                          Services has closed 11
Retirement Board                                                  recommendations and is currently
(02-04)                                                           addressing the remaining 17.




                                                    42
                                                                 Semiannual Report to the Congress



APPENDIX E - REPORTING REQUIREMENTS

Inspector General Requirements                                                               Page

Section 4(a)(2) - Review of Legislation and Regulations                                         32
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 4
Section 5(a)(2) - Recommendations With Respect to Significant Problems,
 Abuses, and Deficiencies                                                                        4
Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                      None
Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   19
Section 5(a)(5) - Instances Where Information Was Refused                                    None
Section 5(a)(6) - List of Audit Reports                                                         33
Section 5(a)(7) - Summary of Each Significant Report                                             4
Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                34
Section 5(a)(9) - Statistical Tables on Management Decisions on
  Recommendations That Funds Be Put to Better Use                                               34
Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
  For Which No Management Decision Has Been Made                                             None
Section 5(a)(11) - Description and Explanation for Any Significant
  Revised Management Decision                                                                None
Section 5(a)(12) - Information on Any Significant Management Decisions
  With Which the Inspector General Disagrees                                                 None


Management Requirements


Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         36
Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  37
Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          38




                                                 43
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
